                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:                Brenda Goodman, Deputy Associate Director, Office of Health Services
                   Carlos Torres, Acting Associate Director, Global Operations
                   Daljit Bains, Chief Compliance Officer

From:              Kathy A. Buller, Inspector General

Date:              August 26, 2013

Subject:          Capstone Report: 2012 Medical Inventory Issues

Transmitted for your information is our Capstone Report on 2012 Medical Inventory Issues. This
report identifies medical supply issues that have continued to be problems for posts and require
management’s attention to help remediate. In this report we issued four recommendations to
address systemic weaknesses.

Recommendations are tracked in TeamCentral to document corrective action and upload
documentation supporting any actions planned or implemented to address the recommendations.
Recommendations may remain open either because of inadequate responses or responses that do
not document the actions taken. Open recommendations are tracked by the chief compliance
officer, who is responsible for assuring that actions are documented and advising us when the
action has been confirmed.

The legislation, as amended, creating the Office of Inspector General requires that we report to
Congress semiannually on all reports issued, actions taken to implement our recommendations,
and recommendations that have not been implemented.

Attachment

cc:     Carrie Hessler-Radelet, Acting Director
        Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Joseph Hepp, Chief Financial Officer
        Dick Day, Regional Director, Africa
        Kathy Rulon, Acting Regional Director, EMA
        Nina Favor, Acting Regional Director, IAP
        Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer




                                                                                                       1
Peace Corps
Office of Inspector General




       Capstone Report:
  2012 Medical Inventory Issues
                                  August 2013
                                      EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted eight audits and one review of Peace Corps
posts abroad (hereafter referred to as “the posts”) during fiscal year (FY) 2012. We specifically
looked at medical supply accountability at the posts and the issues we identified are summarized
in this capstone report. See the Background section and Appendix A for list of the posts and
related reports.

OBJECTIVES
Our objective in auditing medical supply accountability was to evaluate the posts’
implementation of Peace Corps policy and procedures, determine compliance with laws and
regulations, and identify improvements to controls. This capstone report summarizes the medical
supply reviews we conducted at nine Peace Corps posts in FY 2012. Appendix A provides a full
description of our audit objective, scope, and methodology.

RESULTS IN BRIEF
The medical supply process requires post staff to receive, dispense, and dispose of medical
supplies; country directors manage the process by ensuring assigned individuals understand their
roles and enforcing Peace Corps policies. Our FY 2012 work found that the posts’ medical
inventory systems required improvement in a number of areas and did not fully comply with
agency policy. Additionally, we noted recurring issues with inadequate separation of duties, lack
of physical security over medical supplies, undocumented medical supply transfers, insufficient
inventory reconciliations, and inaccurate medical supply inventories.

The Office of Health Services (OHS) has made improvements through its policy and guidance,
training, and oversight. However, OHS needs to provide more training on the various roles in
medical supply management and regional management must hold country directors accountable
for poor medical supply management.

Posts must maintain appropriate levels of medical supply inventory to provide quality Volunteer
medical care. Peace Corps policy establishes the controls over the procurement, receipt, storage,
dispensation, and disposal of medical supplies. The controls are designed to ensure Volunteers’
medical needs are met in a timely manner, that medical supplies are not expired and are
authentic, and that medical supply inventory records are accurate and complete. Failure to fully
implement medical supply policies creates opportunities for theft, diversions, waste, or other
abuses at the posts that could have a serious negative impact on Volunteers’ health.

RECOMMENDATIONS
This report contains four recommendations 1 directed to headquarters offices, which if
implemented, should further strengthen internal control and correct the deficiencies agency-wide.


1
 We made a total of 24 recommendations about medical supply in the nine post audits we conducted during FY
2012. See Appendix C for the status of those recommendations.


Capstone Report: 2012 Medical Inventory Issues                                                               i
                                             TABLE OF CONTENTS

EXECUTIVE S UMMARY ...................................................................................................... i

B ACKGROUND .................................................................................................................. 1

AUDIT RES ULTS ................................................................................................................ 2

       CONTROLS IN THE M EDICAL SUPPLY PROCESS................................................................................................ 2

       HEADQUARTERS OVERSIGHT AND M ANAGEMENT .......................................................................................... 9


LIS T OF RECOMMENDATIONS ......................................................................................... 12

APPENDIX A: OBJECTIVE, SCOPE, AND M ETHODOLOGY ................................................. 13

APPENDIX B: LIS T OF ACRONYMS ................................................................................... 14

APPENDIX C: STATUS OF FY 2012 M EDICAL S UPPLY R ECOMMENDATIONS ..................... 15

APPENDIX D: DEFINITIONS ............................................................................................. 17

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT .................................................. 19
                                                 BACKGROUND
Our objective in auditing medical supply accountability was to evaluate the posts’
implementation of Peace Corps policy and procedures, determine compliance with laws and
regulations, and identify improvements to controls. This capstone report summarizes the medical
supply reviews we conducted at nine Peace Corps posts in FY 2012. Appendix A provides a full
description of our audit objective, scope, and methodology.

All Peace Corps posts maintain a medical office to provide care to Volunteers during their
service. The medical office provides Volunteers with needed vaccinations, medications, and
routine and emergency care. The Peace Corps spends over $4.5 million a year on medical
supplies for posts worldwide, including controlled substances, specially designated supplies, and
other medical supplies. Our FY 2012 audit and investigative work demonstrated that agency
management needs to place stronger emphasis on improving accountability of medical supplies.
In addition, we reported medical inventory as a management and performance challenge in the
agency’s FY 2012 Performance and Accountability Report. This capstone report highlights
related issues identified at the posts and makes additional recommendations to Office of Health
Services (OHS).

Policy. OHS established written policies and procedures through the Peace Corps Manual
section (MS) 734, “Medical Supplies and Equipment,” and its related Technical Guidance (TG)
240, “Medical Technical Guidelines.” MS 734 and TG 240 establish the requirements to
maintain effective controls and procedures that govern the medical supply process and to
implement special standards applicable to controlled substances. Specifically, the policy and
procedures require proper safeguarding of supplies; separation of duties; recording and tracking
the receipt, dispensation, disposal, and transfer of all controlled substances 2 and specially
designated medical supplies; and an annual submission of the inventory and quarterly
workbooks.

Recent Initiatives. In FY 2012, OHS enhanced its policies and procedures regarding medical
supply inventory by issuing additional TG and providing training on the guidance to country
directors (CD), Peace Corps medical officers (PCMO) and other staff abroad. OHS also further
enhanced its support to posts by providing on-site assistance to four posts and performing
detailed analyses of medical supply inventory submissions from all posts. OHS management has
also been reviewing options for automating elements of medical supply inventory, which could
potentially strengthen accountability.




2
  Controlled substances are federally-regulated medicines included on the controlled substances schedules issued by
the U.S. Drug Enforcement Administration (DEA). Specially designated medical supplies are items that OHS deems
to be high value, pilferable, or otherwise deserving of special attention. OHS is responsible for labeling particular
medical supplies as specially designated.


Capstone Report: 2012 Medical Inventory Issues                                                                     1
                                            AUDIT RESULTS
CONTROLS IN THE M EDICAL SUPPLY P ROCESS

Posts struggled to implement the medical supply policy at different times throughout the medical
supply lifecycle.

According to TG 240:

         The Country Director (CD) manages operations at post and is responsible for providing an appropriate
         working environment for the operation of the post Medical Office. The CD is responsible for the physical
         security of the Medical Office and to assure that effective controls for medical supply management are in
         place through appropriate segregation of duties, secure storage, and periodic inventories.

The CD is responsible for the inventory process, including ensuring that inventory workbooks
are completed in a timely manner, enforcing separation of duties, and ensuring staff have
sufficient understanding of their roles and responsibilities in regard to their inventory duties.
However, we found that CDs were not sufficiently involved in the medical supply inventory
process and were not adequately monitoring compliance with policies. Further, CDs did not
always hold employees accountable for performing their inventory responsibilities. This lack of
oversight contributed to opportunities for malfeasance or misconduct and increased the risk that
loss from theft, waste, or abuse of medications would go undetected.

The CD should ensure that the Peace Corps policies are implemented and controls operating
effectively throughout the medical supply process. The post should order and stock the necessary
medical supplies, properly dispense medicine based on need, and transfer or dispose of excess
medicine. Further, every transaction in this process should be properly recorded in the medical
supply workbook and controlled substance log and reconciled during physical inventory count.

                          Figure 1. Illustration of Medical Supply Workflow




Capstone Report: 2012 Medical Inventory Issues                                                                       2
Separation of Duties. The posts did not always establish proper separation of duties related to
accountability over medical supplies, and management did not enforce the policy. According to
the Government Accountability Office (GAO) Standards for Internal Control in the Federal
Government separation of duties entails dividing key duties and responsibilities among different
people. Implemented effectively, this type of control reduces the risk of error and fraud so that
no single individual can adversely affect the accuracy and integrity of the inventory.

TG 240 states:

         The CD is responsible for the … segregation of duties, secure storage, and periodic inventories.
         The Medical Inventory System is comprised of a process that emphasizes separation of duties between the
         medical office and administrative staff not working in the medical office, followed by quarterly
         reconciliation and annual reporting. Various forms, personnel, offices and procedures are necessary to
         maintain a medical inventory system within a post.

The policy requires the post to separate duties as follows:

         the CD oversees the process and controls at post;
         the PCMO manages the medical supplies;
         the acceptance point clerk (APC) verifies receipt of supplies;
         the MSICC records all medical supply transactions in the medical supply workbook; and
         the inventory reconciliation clerk (IRC) compares and reconciles the medical supply
         workbook with the amounts on hand.

We routinely found that CDs had not formally designated inventory roles to staff, as required by
Peace Corps policy. Further, staff at some posts had circumvented the established segregation of
duties of the medical inventory process.

South Africa. The CD had not                Jordan. The CD had not                   Burkina Faso. The CD
designated an IRC to conduct                designated an IRC to conduct             had not designated an
quarterly inventory counts and              quarterly inventory counts and           APC for almost two years.
reconciliations. In addition, staff         reconciliations.                         Even after assigning the
members in the medical unit                                                          role in March 2012, the
who performed duties relating to            --------------------------------------   APC did not verify the
the medical supplies did not                                                         receipt of medical supplies
understand their specific roles             Lesotho. The CD had not                  procured locally; rather
and responsibilities.                       designated an APC to verify the          only those received
                                            receipt of medical supplies.             through the U.S. Embassy.

Ordering and Receiving. The PCMO is responsible for determining what medical supplies are
needed and appropriate to procure for the post. TG 240 instructs the PCMO to consider various
factors, such as previous supply orders, availability of supplies locally, 3 and special medications or
supplies needed for Volunteers when making these determinations. Some posts have developed their
own process for establishing stock levels and when to reorder. We found, however, that posts are

3
 Posts may purchase medical supplies locally only when authorized by Office of Health Services and never for
controlled substances.


Capstone Report: 2012 Medical Inventory Issues                                                                     3
inconsistent in their methodology and often reorder based on sight instead of calculating the stock
level based on historical usage and anticipated needs. For example, PC/Burkina Faso did not have a
system to determine the quantity of medical supplies needed and did not allow adequate time to
receive orders from headquarters before they were needed. While TG 240 provides factors to
consider, the procedure could be enhanced by providing analytical methodology for calculating
when and how often to order common medical supplies. For example, WHO’s Handbook of Supply
Management at First-Level Health Care Facilities, provides steps on how to order supplies based on
past consumption and how to establish reorder levels with enough lead time to ensure shipments
arrive when needed.

Once the medical supplies are received by post, the APC opens supply shipments and check the
contents in the presence of the PCMO, or medical staff designate. According to TG 240, “The
APC works with staff to ensure that newly received medical supplies and equipment are properly
recorded in the Inventory Workbook of the Medical Inventory System.” Having the PCMO
present for receipt of medical supplies is important to ensure the items match what was ordered
and that any damaged or expired items are identified. At PC/South Africa only the APC signed
the receipt for controlled substances without the PCMO’s signature as a witness.

Physical Security. Once the supplies have been received and recorded, the medical staff should
place the medical supplies in a safe and secure location. Sound physical security is essential to
protect government property from loss due to theft and the potential abuse of medical substances.
MS 734 states:

         Country Directors must provide secure storage for all medical supplies that are specially designated or
         controlled substances. Secure storage must provide effective controls and safeguards against theft and
         diversion. Controlled substances must be kept in a bar-locked cabinet with a three-way combination lock.

We found serious deficiencies with the posts’ physical security. Without functioning physical
security controls in place, the posts were not able to ensure that medical supplies were
adequately safeguarded against theft and abuse, jeopardizing the availability of medical supplies
in stock that are necessary for providing critical care to Volunteers. We found physical security
issues with safeguarding specially designated medical supplies and controlled substances, which
could be specific targets of theft and abuse.

South Africa. The post kept                                                      Burkina Faso. Medical
the storage room door                                                            supplies designated for
unlocked during the day                                                          disposal, including some
allowing unauthorized                                                            specially designated drugs,
access and increasing the                                                        were left unsecured with
risk of theft or other losses.                                                   access by custodial and
                                                                                 maintenance staff.
Lesotho. The post stored
commonly used office                                                             The inventory listed for
equipment in the pharmacy,                                                       destruction did not match
increasing the risk that                         PC/Lesotho                      the quantity of medical
unauthorized staff needed                    Medical Supply Room                 supplies in boxes designated
access.                                                                          for disposal.


Capstone Report: 2012 Medical Inventory Issues                                                                      4
Posts routinely stored controlled substances outside of the designated controlled substances
cabinet. MS 734 requires that all cabinets containing controlled substances be secured with a bar
lock and a three-way combination lock known only to the PCMO.

Costa Rica. The PCMO kept               Lesotho. The post stored non-          South Africa. The controlled
the controlled substances in a          medical supplies in the                substance cabinet was not bar-
locked file cabinet within the          medical supply storage room,           locked and controlled
medical office. However, the            increasing the risk that               substances marked for
cabinet was not bar-locked.             unauthorized staff would have          disposal were kept in an
The same area was also used             access to the pharmacy.                unlocked plastic bin on the
to store medical files that the                                                pharmacy floor.
medical assistant needed to
frequently access.

Dispensing. Administering medication and treatment can only be done by trained medical
professionals. The Peace Corps, through TG 114 and trainings, has made improvements in
defining the scope of practice and responsibilities of the PCMO according to their clinical
credential. However, at PC/Burkina Faso we found that the medical secretary inappropriately
dispensed medical supplies to Volunteers without require d prescription forms. The Volunteers
could submit a form requesting medical supplies and the medical secretary would fulfill the
request without involving the PCMO. One of the PCMOs was fully aware of the medical
secretary’s improper role in dispensing to Volunteers and participated in the improper procedure.
Only the PCMO at post has access to Volunteer
medical records and understands Volunteers’
medical histories and needs. The medical secretary       Permitting anyone other than a trained
did not have the medical expertise to properly
dispense medical supplies and would not know             medical professional to dispense medical
whether the medical supplies were necessary and         supplies jeopardizes the health and safety
safe for Volunteers. Permitting anyone other than a                   of Volunteers
trained medical professional to dispense medical
supplies jeopardizes the health and safety of
Volunteers.

Transferring. When post has excess supplies it may transfer them to other posts or the U.S.
Embassy, but must fully document the exchange to prevent medical supplies from being lost or
stolen during the transfer. According to TG 240:

         Transfer or exchange of excess medical shelf life items, including controlled substances, is authorized from
         Peace Corps posts to other posts or the U.S. Embassy. . . . A signed inventory receipt from the receiving agency
         must document transfer of medical supplies and controlled substances to the Embassy. This document must be
         forwarded to the Director of the Office of Medical Services, and the M/AS. A copy of the transfer documents
         must be provided to the MSICC. Under no circumstances must any medical supply be donated to organizations
         other than U.S. government agencies.

Our work found that posts were not always following policy and documenting the transfers. For
example, PC/Burkina Faso received approximately 328 medical supply items with an estimated cost




Capstone Report: 2012 Medical Inventory Issues                                                                     5
of $52,000 from PC/Niger4 but did not verify that the supplies received matched the list provided by
PC/Niger. The PCMO prepared a separate list without explaining why the supplies shipped did not
match their list of supplies received. Further, the post donated many of the supplies to outside
organizations, allegedly through the U.S. Embassy. The post failed to properly conduct or document
the transfer and U.S. Embassy officials deny they accepted the donated medical supplies. Another
post, PC/Malawi, transferred medications to the British Embassy without obtaining a written
confirmation or receipt. Further, the post did not follow policy and notify OHS of the transfer.

Disposing. When pharmaceuticals expire it is important to dispose of them properly and timely
to prevent accidentally dispensing unsafe medicine to Volunteers. This process must be
conducted in the presence of the PCMO and CD to ensure safety procedures are followed and
that supplies are not marked for disposal to hide a loss or theft. TG 240 states:

           Medical supplies . . . with expired shelf life must be destroyed in the presence of the PCMO and the CD, in
           accordance with local waste disposal and air and water pollution control standards. Disposal documentation
           . . . must be retained in post files as per the Peace Corps records schedule, and a copy provided to the
           MSICC.

Mali. The PCMO disposed of                Costa Rica. The CD signed               Lesotho. The post did not
some expired medical                      the disposal forms without              dispose of expired drugs in a
supplies, including controlled            observing the medication                timely manner. Seven expired
substances, by flushing them              transfer to the medical unit for        drugs had remained on the
down the toilet. Flushing the             disposal.                               shelf and in the post’s medical
expired medical supplies is not                                                   supply inventory for two to
an authorized method of                                                           five years past expiration.
disposing medical.

                                     Record Keeping. The MSICCs were not always
                                     recording additions and dispensation in their inventory
Inaccurate and incomplete inventory
                                     workbooks on a timely basis. Timely inventory updates
   records can result in excessive   are needed through the medical supply process to ensure
medical supply stocks for some items the medical unit staff have accurate and reliable inventory
                                     balances to make decisions on ordering and to prevent
      and shortages of others.
                                     theft or misuse. As a result, the medical supply inventory
                                     records were often incomplete and inaccurate.

Accurate and complete inventory records provide a foundation for the decisions medical unit
staff make to purchase medical supplies. Inaccurate and incomplete inventory records can result
in excessive medical supply stocks for some items and shortages of others. This lack of oversight
increased the posts’ vulnerability to theft or abuse of medical supplies. It also prevented posts
from making the inventory planning decisions needed to provide high quality medical support to
Volunteers. MS 734 states:

           A Medical Inventory System must be maintained by the MSICC at each post. It is the official record of
           specially designated or controlled substances at the post. The Medical Inventory Systems must record all
           specially designated and controlled substance medical supplies received, stocked, and distributed at post.

4
    The agency closed the PC/Niger post in January 2011.


Capstone Report: 2012 Medical Inventory Issues                                                                          6
We selected a judgmental sample of medications from the posts’ official medical supply
inventory workbooks and performed a physical count of the on hand items in their pharmacies.
We identified significant discrepancies at six out of the nine posts between the medical supply
book inventories and the actual on hand count. In addition, the posts’ inventory workbooks did
not contain an explanation of significant discrepancies and the medical unit staff were often
unable to explain them.

Malawi. The MSICC did                Burkina Faso. The MSICC             Lesotho. The PCMO did not use
not enter receipt and                did not update the inventory        the proper form for dispensing
dispensation into the                workbook. The MSICC did             medical supplies and the MSICC
workbook, resulting in               not know the accurate “unit”        did not maintain a separate
inaccurate balances.                 of medicine or the generic          medical supply inventory record.
--------------------------------     name of brand name                  -------------------------------------
Costa Rica. The PCMO                 medicines. The IRC witnessed        Mali. The MSICC did not
only applied MS 734 to               the physical count but did not      accurately record the receipts,
controlled substances.               compare the results to the          issues, and balances for non-
Specially designated items           workbook.                           controlled substances. Instead, the
were not being tracked by                                                PCMO conducted monthly counts
the MSICC.                                                               to replenish medical supplies.

Inventorying Controlled Substances. Two of the posts were not maintaining proper inventory
systems of controlled substances, including maintaining the documentation required by the Drug
Enforcement Agency (DEA). MS 734 states:

         Each Medical Office must maintain, on a current basis, a complete and accurate record of each controlled
         substance’s dispensation or disposal. Records for all controlled substances must also be maintained in a
         separate DEA Log with secure pages.

PC/South Africa did not maintain a DEA log book for two recently disposed controlled
substances. The post did not have documentation to support how these controlled substances
were acquired and the reason for their disposal. The APC recorded the controlled substances in
the receipt log by invoice number. As a result, it was not possible to identify the specific
quantities received. PC/Burkina Faso misinterpreted the policy and thought that the inventory
workbook was a replacement of the DEA logbook and did not have a complete and accurate
DEA logbook to record the dispensing of controlled drugs.

Physical Inventory Count. Deficiencies in the posts’ physical count process increased the risk
of inaccurate and incomplete inventory counts. The policy and procedures did not provide
sufficient guidance on how to conduct detailed pre-inventory activities, such as how to properly
cut off inventory transactions, and post inventory reconciliations.

MS 734, Section 8.0, provides the following, limited instruction for performing physical counts:

         The CD must require the IRC to conduct a physical inventory of controlled substances and specially
         designated items each quarter. The IRC must conduct a physical inventory and document the results in the
         Inventory Workbook on a quarterly basis. (Regarding the discovery of loss or theft of controlled
         substances, see section 23 below.)




Capstone Report: 2012 Medical Inventory Issues                                                                      7
GAO’s Executive Guide: Best Practices in Achieving Consistent, Accurate Physical Counts of
Inventory and Related Property (GAO-02-447G) provides a list of necessary steps before
conducting an inventory to ensure the inventory counted includes all the items that should be
present. Pre-inventory activities include preparing the physical location, organizing work areas
and storage locations, identifying and segregating items, ensuring that all inventory items have
labels or some form of identification, verifying that items are in the correct location, pre-
counting slow moving items, and identifying excess/obsolete inventories.

We found instances where posts did not have proper pre-inventory practices, making it more
difficult and time consuming to count the medical supplies and reconcile the records. We
observed that posts commonly organized the same medications in different locations at the post.
For example, at PC/Malawi, the medical unit maintained plastic bins to hold specific medications
ready for dispensation to certain Volunteers. These items were usually not added back to the
inventory before counts took place. Storing medications in different locations during the
inventory count may pose a challenge for IRCs, who are required to work outside of the medical
unit and therefore may be unfamiliar with medical supply organization or the inventory process.
We have also identified posts that did not keep their medical supplies orderly. Lack of organized
storage can also present unnecessary challenges and burdens on the IRC when physical counts
are performed. PC/Lesotho’s medical supplies were not well organized, making it difficult to
identify lost or otherwise unaccounted for supplies.

The posts did not conduct adequate research for discrepancies identified when physical counts
were performed by the IRC. The policy was not clear on the process for researching, resolving,
and reporting. This is especially concerning because some of the posts demonstrated large
discrepancies when we took a physical count onsite. For example, at PC/Malawi 14 of the 30
specially designated medications we counted were inaccurate, some had variances over 50
percent of what was recorded in the inventory workbook. Post staff were unable to explain the
cause of the discrepancies. According to the GAO’s inventory best practices, researching
                                         discrepancies is important because variances may
                                         indicate that something is wrong with the inventory
       Researching discrepancies is      system or the operations that affect inventory balances.
   important because variances may Identifying the causes of variances is useful in detecting
    indicate that something is wrong     weaknesses in the underlying controls and individual
                                         processes that affect the inventory system record. In
        with the inventory system
                                         addition, inventory record on-hand balances should not
                                         be adjusted until recounts and research are complete.

TG 240 requires IRCs to report to the CD any discrepancies in the post’s medical inventory
regarding controlled substances and specially designated items and to reconcile differences, such
as any errors identified or omissions of information in one record or another or patterns of errors
or omissions. However, the IRCs were not provided training or further guidance on how to
research or resolve discrepancies. IRCs may have limited experience performing physical
inventory counts or with the inventory process and may need the assistance of other staff
involved in the process (such as the PCMO, MSICC, and APC) to research the discrepancy.
Further, TG 240 did not require CDs to explain discrepancies to OHS, only to report the figure.




Capstone Report: 2012 Medical Inventory Issues                                                      8
HEADQUARTERS OVERS IGHT AND M ANAGEMENT

Peace Corps headquarters continues to provide additional guidance and training on the
medical supply policies. However, additional training and greater oversight would improve
compliance.

OHS manages the health care system for Volunteers and relies on CDs and PCMOs to
implement the guidance and follow requirements. A good control environment and monitoring
are essential for OHS to effectively manage medical operations throughout the world. According
to GAO’s Standards for Internal Control in the Federal Government:

         Control Environment - Management and employees should establish and maintain an environment
         throughout the organization that sets a positive and supportive attitude toward internal control and
         conscientious management. . . .

Included in the control environment are how staff perceives their role in establishing and
maintaining good controls and how an agency trains and evaluates its personnel on their roles. It
also includes providing a proper amount of supervision. Region and OHS did not effectively
enforce policy and did not hold CDs accountable when inventory positions were not
appropriately assigned, inventory counts were inaccurate, or when separation of duties were not
properly implemented. 5 Accountability within an organization should exist from the top of the
organization to the lowest level.

Monitoring Post Compliance. OHS’s primary mechanism for monitoring the posts’ compliance
with policy is the annual inventory workbook submissions. GAO’s Standards for Internal
Control in the Federal Government defines monitoring:

         Internal control monitoring should assess the quality of performance over time . . . . Internal control should
         generally be designed to assure that ongoing monitoring occurs in the course of normal operations. It is
         performed continually and is ingrained in the agency’s operations. It includes regular management and
         supervisory activities, comparisons, reconciliations, and other actions people take in performing their
         duties.

However, of the 67 posts that submitted the inventory workbooks to OHS for FY 2012, only 26
inventory workbooks were considered acceptable by OHS. Although response rates improved in
FY 2013 OHS continued to find significant discrepancies that were not adequately explained by
posts. OHS uses this information to identify posts with significant discrepancies and frequent
inaccuracies. In addition, OHS staff have communicated and visited posts that had significant
discrepancies to provide additional support and training. We found this monitoring to be valuable
in helping ensure policies are followed. Enhancing headquarters oversight demonstrates the
importance of good controls and will improve overall compliance. OHS should consider
enhancing their monitoring by receiving the quarterly inventories to review significant
deficiencies and trends and track the causes of discrepancies over a period of time to identify
systemic issues.


5
 Peace Corps posts report to one of three regions: Africa, Inter-America Pacific, and Europe, Mediterranean, and
Asia. While OHS manages the overall agency medical operations, Region supervises and manages CDs.


Capstone Report: 2012 Medical Inventory Issues                                                                        9
Training on Various Roles. Post staff continued to struggle with implementing the procedures
and needed additional training and procedures related to the medical supply inventory process
and their roles and responsibilities. OHS provided training to PCMOs at their annual continuing
medical education conference. They also trained CDs and DMOs on the process during overseas
trainings. However, CDs assign the various roles of APC, MSICC, and IRC to staff outside the
medical unit, who are not always familiar with the medical supply process. It is then incumbent
on the CD or PCMO to instruct staff on their responsibilities. To ensure policies are implemented
consistently, OHS should provide additional training or guides on the various functions.

Enhancing Controls over All Medical Supplies. OHS requires posts to track 83 medical
supplies that are either controlled substances or specially designated supplies that OHS deems to
be high value, pilferable, or otherwise deserving of special attention. Through TG 240, OHS
clearly defined the method and official record that posts maintain an accurate account of
controlled substances and specially designated items through medical supply receipt,
distribution, and disposal. OHS reviews the list of specially designated supplies each quarter but
did not have predefined criteria to support the decision of what to include.

We determined that the majority of medical supplies were not classified as controlled substances
or specially designated and therefore were not tracked or controlled using the TG 240
requirements or through another process. However, the Peace Corps was not able to easily
quantify how many medical supplies were categorized as controlled substances, specially
designated, or other. This makes it difficult to determine how much of the total costs are being
tracked and whether specific medical supplies that may be significant in t otal costs were
excluded from the TG 240 procedures.

The total cost of the medical supplies that are not tracked using T G 240 procedures should be
considered when developing control mechanisms. For tracking medical supplies that are not
controlled or specially designated, some posts use mechanisms such as stock cards and
spreadsheets. According to the World Health Organization (WHO) Handbook of Supply
Management at First-Level Health Care Facilities:

           There should be a stock card for each item [6] in your store. Keep the stock card with the item on the shelf.
           Use the stock card to track the movement of the item. Record when and how the item is used. This includes
           all movements, such as when a new shipment of an item arrives at the store, when an item is moved out of
           the store room to the dispensary, or when an item is dispensed directly to a patient.

The use of stock cards or other inexpensive methods of tracking can help safeguard the less
vulnerable supplies. When OHS conducted site visits the staff shared best practices and provide d
some alternatives to enhance supply management over the medical supplies that are not
considered controlled or specially designated. However, OHS had not required any specific
process nor documented these alternative methods of supply management.

In addition, OHS was in the process of procuring a system to manage medical supplies , which
could enhance accountability and promote greater efficiency. The system will include an
electronic medical inventory tracking component designed to index and track medical inventory

6
    Items may be counted individually, such as controlled substances, or as a unit, such as boxes of bandages.


Capstone Report: 2012 Medical Inventory Issues                                                                       10
received, dispensed, and destroyed at posts; identify minimal stock levels for reordering; collect
input cost per items; and run analysis and reports from headquarters. Our audits will continue to
monitor posts’ medical inventories and whether the system remediates recurring issues.




Capstone Report: 2012 Medical Inventory Issues                                                   11
                               LIST OF RECOMMENDATIONS
We recommend:

    1. That the Office of Health Services develop and provide additional training and detailed
       procedures for the various tasks included in medical supply management, including recording
       transactions in the workbook and conducting inventories.

    2. That the Office of Health Services track the total procurement of the different classifications
       of medical supplies: controlled, specially designated, and other. Additionally, that the Office
       of Health Services use this information to monitor the amount of medical supplies covered by
       the policies, to determine what is included in the list of specially designated medical supplies,
       and to establish appropriate controls for the different classifications.

    3. That the Office of Health Services enhance the monitoring of medical supply inventories
       to include conducting additional analysis, requiring explanations for significant
       discrepancies, and assisting posts that continue to struggle with implementing procedures.

    4. That the Office of Health Services communicate any significant issues identified with the
       post’s compliance with medical supply policies to the regional management and that
       regional management take appropriate action to hold post staff accountable.




Capstone Report: 2012 Medical Inventory Issues                                                   12
APPENDIX A

                      OBJECTIVE, SCOPE, AND M ETHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and complying with Peace Corps policies and federal
regulations. This capstone report provides a summary of medical inventory issues we identified
while conducting our FY 2012 post audits. Medical inventory issues are important to highlight
because of their impact on both Volunteer safety and well-being, and the effectiveness of post
operations. During FY 2012, we conducted the following audits of posts, which included a
review of their medical supply accountability:

       1.   Report No. IG-13-05-A, Jamaica Final Audit Report (July 3, 2013)
       2.   Report No. IG-13-03-A, South Africa Final Audit Report (March 18, 2013)
       3.   Report No. IG-13-02-A, Malawi Final Audit Report (February 27, 2013)
       4.   Management Advisory Report, Breakdown of Internal Controls of Burkina Faso Medical
            Unit (September 26, 2012) 7
       5.   Report No. IG-12-08-A, Tonga Final Audit Report (September 28, 2012)
       6.   Report No. IG-12-07-A, Jordan Final Audit Report (September 25, 2012)
       7.   Report No. IG-12-05-A, Lesotho Final Audit Report (June 29, 2012)
       8.   Report No. IG-12-04-A, Mali Final Audit Report (March 22, 2012)
       9.   Report No. IG-12-03-A, Costa Rica Final Audit Report (March 9, 2012)

See the individual reports for the audit standards and further details about the objectives, scope, and
methodology. Our audit criteria were derived from the following sources: federal regulations, the
Peace Corps Manual, Overseas Financial Management Handbook , Medical Technical Guidelines,
and other Peace Corps policies and initiatives.




7
    This was a limited scope audit/investigation of only the post’s medical inventory system.


Capstone Report: 2012 Medical Inventory Issues                                                    13
APPENDIX B

                                        LIST OF ACRONYMS
   APC                             Acceptance Point Clerk
   CD                              Country Director
   DEA                             Drug Enforcement Agency
   FY                              Fiscal Year
   GAO                             Government Accountability Office
   IRC                             Inventory Reconciliation Clerk
   MS                              Peace Corps Manual Section
   MSICC                           Medical Supply Inventory Control Clerk
   OFMH                            Overseas Financial Management Handbook
   OIG                             Office of Inspector General
   OHS                             Office of Health Services
   PCMO                            Peace Corps Medical Officer




Capstone Report: 2012 Medical Inventory Issues                              14
 APPENDIX C

   STATUS OF FY 2012 M EDICAL SUPPLY RECOMMENDATIONS
Post              Status             Recommendation
PC/Costa          Closed             That the Peace Corps medical officer store controlled substances in a bar-
Rica                                 locked cabinet with a three-way combination lock and control access to the
IG-12-03-A                           cabinet.
                  Closed             That the medical supplies inventory control clerk include specially
                                     designated medical supplies on the medical inventory control log and
                                     ensure that the log contains accurate quantities and expiration dates.
                  Closed             That the country director sign the medical supply disposal form only after
                                     observing the medical supplies transfer to the pharmacy.
                  Closed             That the country director submit the medical inventory control log to the
                                     Office of Medical Services annually as required by Peace Corps Manual
                                     section 734 and Medical Technical Guideline 240.
PC/Mali           Closed             That the country director implement proper segregation of duties by
IG-12-04-A                           assigning an individual outside the medical unit as the medical supply
                                     inventory control clerk.
                  Closed             That the post implement the agency’s medical supplies inventory policy by
                                     ensuring that the medical supply inventory control clerk maintains
                                     adequate medical inventory records. The inventory records should record
                                     all receipts, issues, and provide the current balance.
                  Closed             That the country director perform a quarterly inventory count of medical
                                     supplies and controlled substances in accordance with the Peace Corps
                                     Manual.
                  Closed             That the country director, in coordination with the Office of Medical
                                     Services, determine and use a proper method for disposal of expired
                                     medical supplies, including controlled substances.
PC/Lesotho        Closed             That the post designate a secured room for storing medical supplies and
IG-12-05-A                           restrict its access to designated staff only.
                  Closed             That the post conduct a complete physical inventory of medical supplies in
                                     accordance with agency policy and update the inventory records
                                     accordingly.
                  Closed             That the country director assign someone who is not assigned to the
                                     medical office as the acceptance point clerk to receive medical supplies
                                     delivered to the post.
                  Closed             That the country director and the Peace Corps medical officer dispose of
                                     expired medical supplies in a timely manner in accordance with Peace
                                     Corps policy.
PC/Jordan         Closed             That the post conduct inventory reconciliations of the recorded medical
IG-12-07-A                           supply inventory in the health unit with the recorded inventory in the
                                     office’s inventory workbook.
                  Closed             That the country director ensure both the medical supply inventory control
                                     clerk and the acceptance point clerk verify the accuracy of received
                                     medical supplies and sign the receipt forms.
PC/Tonga          None               No findings related to medical supply inventory.
IG-12-08-A
PC/Burkina        PENDING            We recommend that agency management take immediate action to ensure
Faso                                 that all Peace Corps posts have adequate internal control over their
                                     medical supplies by fully implementing the requirements of Peace Corps
                                     Manual Section 734 and Medical Technical Guideline 240.

 Capstone Report: 2012 Medical Inventory Issues                                                           15
 APPENDIX C

PC/Malawi         Closed             That the country director clarify the roles and responsibilities of the
IG-13-02-A                           medical system inventory staff and provide adequate training to perform
                                     their duties.
                  PENDING            That the medical supply inventory control clerk begin a new copy of the
                                     medical inventory workbook every quarter using the adjusted beginning
                                     balances based on the previous quarterly inventory count and record all
                                     purchasing, dispensing, and disposing of specially designated medications
                                     and controlled substances in a timely manner.
                  PENDING            That the medical supply inventory control clerk conduct a reconciliation of
                                     medical supplies and the inventory workbook and identify the reasons for
                                     the differences. That the country director monitor this process and initiate
                                     any needed corrective action
                  PENDING            That the post discontinue transferring its medical supplies to foreign
                                     embassies and comply with Peace Corps Manual section 734 when
                                     transfers are made to the U.S. Embassy. To include obtaining written
                                     confirmation for all transfers and notifying the Office of Medical Services.
PC/South          Closed             That the country director and the post’s Peace Corps medical officers
Africa                               ensure that the medical supplies are secured in compliance with Peace
                                     Corps policy.
                  Closed             That the country director review the medical supply inventory quarterly to
                                     ensure that staff record medical supply transactions accurately and
                                     completely and that any differences noted during the physical count are
                                     reconciled and corrective actions are taken.
                  Closed             That the country director work with the Office of Health Services to
                                     determine whether the locally-developed medical inventory system is
                                     beneficial and in compliance with Peace Corps policy.
                  Closed             That the country director ensure all controlled substances are properly
                                     received and recorded in a Drug Enforcement Agency log book.
                  Closed             That the country director clarify the roles and responsibilities of medical
                                     and inventory staff, separate duties in accordance with Peace Corps policy,
                                     develop standard operating procedures, and provide training to medical
                                     staff on the accountability of medical supplies.
PC/Jamaica        None               No findings related to medical supply inventory.




 Capstone Report: 2012 Medical Inventory Issues                                                              16
APPENDIX D

                                                 DEFINITIONS
Acceptance Point Clerk (APC) is appointed by the CD and is responsible for receiving all
medical supplies at post and coordinating initial inventory and transfer to the Medical Office.
The APC works with both the Medical Supply Inventory Control Clerk (MSICC) and the PCMO
to ensure that medical supplies are properly delivered and inventoried. The APC must not be a
member of the Medical Office staff, and cannot serve as the MSICC Clerk. Further, the APC
may not perform the quarterly inventory of medical supplies.

Controlled Substances are federally-regulated medicines included on the controlled substances
schedules issued by the U.S. Drug Enforcement Administration (DEA).

Country Director (CD) manages operations at a post and is responsible for providing an
appropriate working environment for the operation of the post Medical Office.

Inventory Reconciliation Clerk (IRC) is appointed by the CD and is responsible for the
reconciliation of the recorded inventory in the health office and the recorded inventory in the
office’s Inventory Workbook. The IRC conducts a physical inventory of all controlled
substances and specially designated items quarterly and reports results to the CD. In addition, an
annual inventory report addressing all controlled substances and specially designated items must
be conducted to document the March 31 inventory level, and submitted to Office of Health
Services (OHS) no later than April 15, of each year. The IRC must not be a member of the
medical office staff, and cannot serve in any other capacity related to the management of medical
supplies and equipment inventory.

Medical Equipment includes basic medical office furnishings and diagnostic laboratory
equipment necessary to support the operations of the Medical Offices. All Peace Corps-owned
professional equipment is the property of Peace Corps and must be managed according to Peace
Corps Manual section (MS) 511, which addresses management and disposition of Peace Corps
personal property.

Medical Inventory System is the method and official record by which the post maintains an
accurate account of controlled substances and specially designated items via medical supply
receipt, distribution, and disposal. Specific procedures for a Medical Inventory System at post
are outlined in Peace Corps Medical Technical Guide (TG) 240.

Medical Supplies include all medicines, dressing material, laboratory reagents, test kits, birth
control products, vaccines, and small consumable medical equipment, as well as controlled
substances.

Medical Supply Inventory Control Clerk (MSICC) is appointed by the CD. The MSICC
maintains the Medical Inventory System. The MSICC must not be a member of the Medical
Office staff. The MSICC works with both the APC and the PCMO to ensure that medical
supplies are properly delivered and inventoried. The MSICC is not permitted to serve as the APC
or to perform the quarterly inventory of medical supplies.


Capstone Report: 2012 Medical Inventory Issues                                                     17
APPENDIX D

Peace Corps Medical Officer (PCMO) is a physician, nurse practitioner, registered nurse or
physician’s assistant who oversees the post’s medical office and the provision of health care to
PCVs. In some cases, there may be more than one PCMO at a post. The PCMO receives
guidance from OHS regarding the medical supplies that should be available at post. The
associate director (AD) for OHS has overall responsibility for managing and supervising the
PCMO, but the CD has day-to-day management and supervision responsibility of the PCMO in
non-clinical areas.

Specially Designated Medical Supplies are items that OHS deems to be of high value,
pilferable, or otherwise deserving of special attention. OHS is responsible for labeling particular
medical supplies as specially designated.




Capstone Report: 2012 Medical Inventory Issues                                                   18
APPENDIX E

             AUDIT COMPLETION AND OIG CONTACT
AUDIT COMPLETION     Bradley Grubb, Hal Nanavati, Waheed Nasser, and Gabrielle
                     Perret performed the audit work included in this capstone
                     report.

OIG CONTACT          If you wish to comment on the quality or usefulness of this
                     report to help us strengthen our product, please email Assistant
                     Inspector General for Audit Bradley Grubb, at
                     bgrubb@peacecorps.gov, or call him at 202.692.2914.
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
